<html>
<title> - SAVING LIVES AND MONEY THROUGH THE PRE-DISASTER MITIGATION PROGRAMS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


.
   SAVING LIVES AND MONEY THROUGH THE PRE-DISASTER MITIGATION PROGRAMS

=======================================================================

                               (110-122)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 30, 2008

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure




                   U.S. GOVERNMENT PRINTING OFFICE
42-252 PDF                  WASHINGTON : 2008
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
DORIS O. MATSUI, California          DAVID G. REICHERT, Washington
NICK LAMPSON, Texas                  CONNIE MACK, Florida
ZACHARY T. SPACE, Ohio               JOHN R. `RANDY' KUHL, Jr., New 
MAZIE K. HIRONO, Hawaii              York
BRUCE L. BRALEY, Iowa                LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          CHARLES W. BOUSTANY, Jr., 
TIMOTHY J. WALZ, Minnesota           Louisiana
HEATH SHULER, North Carolina         JEAN SCHMIDT, Ohio
MICHAEL A. ACURI, New York           CANDICE S. MILLER, Michigan
HARRY E. MITCHELL, Arizona           THELMA D. DRAKE, Virginia
CHRISTOPHER P. CARNEY, Pennsylvania  MARY FALLIN, Oklahoma
JOHN J. HALL, New York               VERN BUCHANAN, Florida
STEVE KAGEN, Wisconsin               ROBERT E. LATTA, Ohio
STEVE COHEN, Tennessee
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey

                                  (ii)

  
?

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

        ELEANOR HOLMES NORTON, District of Columbia, Chairwoman

MICHAEL H. MICHAUD, Maine            SAM GRAVES, Missouri
JASON ALTMIRE, Pennsylvania          BILL SHUSTER, Pennsylvania
MICHAEL A. ARCURI, New York          SHELLEY MOORE CAPITO, West 
CHRISTOPHER P. CARNEY,               Virginia
Pennsylvania, Vice Chair             CHARLES W. DENT, Pennsylvania
TIMOTHY J. WALZ, Minnesota           JOHN R. `RANDY' KUHL, Jr., New 
STEVE COHEN, Tennessee               York
JAMES L. OBERSTAR, Minnesota         JOHN L. MICA, Florida
  (Ex Officio)                         (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Bohlmann, Robert C., Director, York County Emergency Management 
  Agency.........................................................     9
Maurstad, David I., Assistant Administrator and Federal Insurance 
  Administrator, Mitigation Directorate, Federal Emergency 
  Management Agency..............................................     3
Mullen, James, Chairman, Mitigation Committee, National Emergency 
  Management Association.........................................     9
Woodworth, Brent, Chairman, Multihazard Mitigation Council, 
  National Institute of Building Sciences........................     9

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Altmire, Hon. Jason, of Pennsylvania.............................    24
Norton, Hon. Eleanor Holmes, of the District of Columbia.........    25
Oberstar, Hon. James L., of Minnesota............................    27

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Bohlmann, Robert C...............................................    30
Maurstad, David I................................................    35
Mullen, James....................................................    39
Woodworth, Brent.................................................    46

                       SUBMISSIONS FOR THE RECORD

Woodworth, Brent, Chairman, Multihazard Mitigation Council, 
  National Institute of Building Sciences:

  ``Mitigation Generates Savings of Four to One and Enhances 
    Community Resilience,'' Natural Hazards Observer 30, no. 4 
    (March 2006).................................................    51
  Summary of Economic Analysis of Benefits and Costs of FEMA 
    Hazard Mitigation Projects...................................    55

                        ADDITIONS TO THE RECORD

National Association of Regional Councils, Hon. Betty Knight, 
  President, written statement...................................    70

[GRAPHIC] [TIFF OMITTED] T2252.001

[GRAPHIC] [TIFF OMITTED] T2252.002

[GRAPHIC] [TIFF OMITTED] T2252.003



   SAVING LIVES AND MONEY THROUGH THE PREDISASTER MITIGATION PROGRAMS

                              ----------                              


                       Wednesday, April 30, 2008

                  House of Representatives,
    Committee on Transportation and Infrastructure,
Subcommittee on Economic Development, Public Buildings, and 
                                      Emergency Management,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 9:07 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Eleanor Holmes 
Norton [Chairwoman of the Subcommittee] presiding.
    Ms. Norton. I want to say good morning and welcome all of 
our witnesses and all who have come this morning. Today's 
hearing will focus on the reauthorization of the Predisaster 
Mitigation Program authorized by section 203 of the Stafford 
Act, which is due to sunset on September 30th of this year.
    The Predisaster Mitigation Program was first authorized by 
this Committee in the Disaster Mitigation Act of 2000. The 
title of today's hearing, Saving Lives and Money Through the 
Predisaster Mitigation Program, perfectly describes a program 
that saves far more than is invested.
    The Predisaster Mitigation Program is a companion for the 
Postdisaster Hazards Grant Mitigation Program, also authorized 
by this Committee in section 404 of the Stafford Act. The vast 
predominance of disasters in the country, of course, are from 
natural disasters. Examples of mitigation for such disasters 
include elevating or buying out structures in a floodplain and 
strengthening buildings to better withstand earthquakes or 
hurricanes. This program provides cost-effective technical and 
financial assistance to State and local governments to reduce 
injuries, loss of life, and damage to property that might 
otherwise be caused by natural disasters.
    The Predisaster Mitigation Program has been developed based 
on a successful pilot program, Project Impact. One often-cited 
example of the effectiveness of predisaster mitigation is from 
Washington State. Immediately after the Nisqually earthquake 
struck Seattle on February 28th, 2001, Seattle Mayor Paul 
Schell and other public officials cited predisaster mitigation 
grants that fortified buildings as one of the primary reasons 
that lives and property were saved during the earthquake. 
Ironically, the mayor's statements came on the same day that 
the administration claimed that the project administration 
predisaster pilot program should be defunded because it was not 
effective. However, Congress had already written this program 
into law based upon compelling evidence that the Predisaster 
Mitigation Program is an investment that has shown it works.
    The evidence that had resulted in congressional action came 
from a successful pilot project and has been substantiated by 
anecdotal evidence such as provided by Seattle, and, more 
importantly, by empirical evidence provided later by two 
congressionally mandated studies. In 2005, the Multihazard 
Mitigation Council, part of the National Institute of Building 
Sciences, chaired by one of our witnesses today, found, quote, 
that a dollar spent on mitigation saves society an average of 
$4, end quote.
    The Congressional Budget Office issued a September 2007 
report on the Predisaster Mitigation Program as required under 
the Disaster Mitigation Act of 2000, which stated, and here I 
quote, the best available information suggests that on average 
future losses are reduced by about $3 for each dollar spent on 
those projects, including both Federal and non-Federal funding, 
end quote.
    Choose whatever study you prefer, but unavoidably money for 
this program has consistently been shown to provide an 
excellent return on investment. Today's hearing will focus on 
investments in mitigation measures which affect the safety of 
infrastructure. The full Transportation and Infrastructure 
Committee is planning a hearing on other investment 
opportunities which also will focus on our Nation's 
infrastructure needs.
    I am pleased to hear from our Ranking Member Mr. Graves.
    Mr. Graves. Thank you, Madam Chair, and I appreciate all of 
our witnesses being here today and taking the time to come by.
    Today's hearing will focus on the reauthorization of the 
Predisaster Mitigation Program administered by FEMA. The 
Predisaster Mitigation Program under section 203 of the 
Stafford Act sunsets on September 20th, 2008. The Predisaster 
Mitigation Program was originally authorized by the Disaster 
Mitigation Act of 2000 as a pilot program to study the 
effectiveness of mitigation grants given to communities before 
disasters strike. Prior to the creation of the Predisaster 
Mitigation Program, hazard mitigation primarily occurred after 
a disaster through FEMA's Hazard Mitigation Grant Program.
    Every disaster costs us in damages to homes, businesses, 
and infrastructure, and potentially in the loss of lives. The 
Predisaster Mitigation Program prevents damage and destruction 
by helping communities to act proactively through planning and 
projects that reduce the costs and limit the adverse impacts of 
future disasters. With FEMA's assistance, local governments 
identify cost-effective mitigation projects. When approved, 
these projects may be funded by the Predisaster Mitigation 
Program, which operates as a competitive award grant program. 
Since its inception, the Predisaster Mitigation Program has 
assisted local communities across the country and has helped 
fund a wide range of mitigation projects such as mitigation 
plans, buyouts and improved shelters.
    In 2005, the National Institute of Building Sciences issued 
a study that conclusively demonstrated that Federal mitigation 
programs save the Federal Government money. Specifically, the 
study found that for every dollar spent on mitigation, the 
American taxpayer saves over $3 in Federal disaster payments. 
In short, mitigation works. It saves lives, limits future 
damage, reduces Federal disaster costs.
    The Predisaster Mitigation Program is a worthy program, and 
I look forward to working with the Chair to reauthorize it this 
year. Again, I want to thank our witnesses for being here 
today, and I look forward to the testimony.
    Thank you, Madam Chair.
    Ms. Norton. Thank you very much.
    We will go to our first witness, and his full name is David 
Maurstad, who is Assistant Administrator and Federal Insurance 
Administrator of the Mitigation Directorate. Pardon me. You may 
proceed, sir.

  TESTIMONY OF DAVID I. MAURSTAD, ASSISTANT ADMINISTRATOR AND 
   FEDERAL INSURANCE ADMINISTRATOR, MITIGATION DIRECTORATE, 
              FEDERAL EMERGENCY MANAGEMENT AGENCY

    Mr. Maurstad. Good morning, Chairwoman Norton, Ranking 
Member Graves, Members of the Subcommittee. I am David 
Maurstad, FEMA Assistant Administrator for Mitigation. Thank 
you for the opportunity to testify today about the success of 
FEMA's Predisaster Mitigation Grant Program and respectfully 
request reauthorization of the program.
    FEMA's mission is to lead the Nation in an effort to 
prevent, prepare for, respond to, and recover from all hazards. 
This comprehensive emergency management system starts with 
mitigation: sustained efforts by communities, businesses, and 
individuals to reduce their vulnerability from future 
disasters. PDM has become an integral part of FEMA's mitigation 
strategy by providing grants to States, territories, tribal 
governments and communities so that they can develop mitigation 
plans and implement mitigation activities before hazards 
strike.
    Community-level mitigation planning and activities save 
lives, reduce property damage, direct response and recovery 
efforts to where they are needed most, decrease reliance on 
Federal disaster funds, and reduce the financial impacts of 
disasters on the communities they strike as well as the Nation. 
All States and territories and more than 16,000 communities, 
involving approximately 64 percent of the Nation's population, 
now have mitigation plans. Many were funded by PDM. These plans 
not only help communities focus on reducing vulnerability to 
hazards, they open the door for PDM brick-and-mortar grants 
that support a wide range of cost-effective mitigation 
activities such as acquiring repetitively flooded homes; 
protecting utilities; and retrofitting, elevating or relocating 
hazard-prone homes and businesses.
    PDM's basic premise, to help communities build stronger and 
smarter, is not new. FEMA has been facilitating community 
mitigation efforts since 1988, when the Hazard Mitigation Grant 
Program was created. An excellent example of a cost-effective 
HMGP project can be seen in Exhibit A. This photograph shows a 
coastal Mississippi home that was elevated using HMGP funds. 
Several years after the project was completed, this home was 
the only one left standing on a street ravaged by Hurricane 
Katrina's storm surge. This HMGP success not only offers a 
clear example of mitigation's effectiveness, but also 
underscores the fact that it often takes time to realize 
avoided losses. PDM, like the postdisaster HMGP, also funds 
elevations like the one shown in Exhibit A, and over time, 
States and communities will be able to highlight many similar 
successes.
    In Rutherford County, Tennessee, for example, State and 
local officials used PDM funds to acquire a flood-prone home. A 
family closed on the home in 1997 after conducting a reasonable 
and prudent examination of the pros and cons of purchasing. 
What this family did not know, however, was the home's flood 
history. The home suffered 20 documented floods after it was 
purchased, with an annual recovery cost averaging $17,000. PDM 
funds enabled Rutherford County officials to acquire the 
property from the homeowner, demolish the structure, and return 
the property to open space, thus eliminating a persistent flood 
risk, and reduced the burden on the local services that protect 
the homeowner and his family from potential and actual 
flooding.
    These mitigation success stories show how States and 
communities can benefit from both types of mitigation 
assistance.
    PDM's success leads FEMA to be optimistic about the 
program's future, and in anticipation of reauthorization and 
related appropriations, the Agency is moving forward with the 
following grant cycle schedule: June 2nd, 2008, release of the 
unified hazard mitigation assistance guidance and opening of a 
6-month application period; December 12th, 2008, close the 
application period and begin eligibility and completeness 
review; mid-January 2009, begin National Technical and Peer 
Evaluation Reviews; and in March of 2009, finalize selections 
and begin preaward process. This projected aggressive schedule 
reflects feedback FEMA has received from our constituents, and 
is consistent with Congress's desire that FEMA obligate all 
available PDM funding in a timely manner.
    The administration supports reauthorization of the 
Predisaster Mitigation Grant Program through 2013. Doing so for 
5 more years will assure a stable and dependable source of 
mitigation funding, and will promote consistent community 
efforts to pursue mitigation planning and activities. Without 
PDM, I am afraid that the momentum we have developed over the 
last 5 years in States and communities across the Nation to 
address hazards before disasters strike will be lost.
    Thank you for this opportunity to testify this morning. I 
look forward to any questions that you might have.
    Ms. Norton. Thank you very much, Mr. Maurstad, for that 
testimony that lays out some of the results.
    So I take it that, just for the record, that the 
administration does support reauthorization?
    Mr. Maurstad. Yes, ma'am. Support reauthorization to 2013.
    Ms. Norton. How many grants have you received, and how many 
have been awarded, please?
    Mr. Maurstad. I could get you--well, I am pretty sure I 
have got the number here. Through 2007 we have awarded 1,494 
subapplications for projects and plans for a total of 
$485,359,000; 943 were plans and 551 projects. As of today, 85 
percent of the funds have been obligated, but all of the funds 
have been dedicated to particular projects.
    Ms. Norton. How many did you receive in total, Mr. 
Maurstad?
    Mr. Maurstad. Generally speaking, in a grant cycle, for the 
five grant cycles, we have received two to three times the 
amount of requests for the funding that was available.
    Ms. Norton. How do you evaluate? Here you have what looks 
like a very popular program, and a competitive program at that. 
But, by the way, do you think it should continue to be a 
competitive program? There have been some who have suggested 
that there should be some sort of formula. Which do you prefer?
    Mr. Maurstad. I think that first it is--as you indicated, 
it is a nationally competitive program. And I think the amount 
of the applications indicate that there is a great deal of 
mitigation work that can be done throughout the country. The 
benefits associated with the nationally competitive program is 
that the limited funding that is available goes to the best 
projects. That is done through a series of activities starting 
at the local level in developing the project, knowing that it 
is a competitive project. I think that puts additional emphasis 
for the communities to develop good projects. They then go to 
the State that also looks at the projects, determines the best 
projects to forward for the national competitive review. The 
regions look at them.
    But the benefits for the national peer review is 
consistency, to make sure that there is consistency with State 
and local plans, effective use of the resources, making sure 
that they have the proposed viability, likelihood of successful 
loss reduction. They go through technical review, engineering 
studies, make sure that they are again cost-effective.
    The last 2 years we have had a blended program. We have had 
a national competitive program, and we have also had a minimum 
set-aside for each State of $500,000. That has proved to be a 
very workable process that allows all States to participate in 
PDM, and believe that is a good way forward.
    Ms. Norton. That is an important addition, the set-aside 
program. Of course, what you described as important in any 
competitive process are steps, and it is important for our 
grants--and most of our grants are competitive--for us to go 
through the kind of rigorous competition you have just 
suggested. And I think some have suggested a formula approach 
because of the sophistication needed in order to write such a 
grant.
    We have made no decision on that, but the notion that some 
areas or States or counties are more sophisticated than others 
to engage in the competition, do you have any views on that, on 
how, for example, people might be helped, whether or not there 
is some way that FEMA could offer some assistance to the 
jurisdictions that don't have the technical sophistication or 
capability of writing a competitive grant in an area like this?
    Mr. Maurstad. Well, first of all, I think there has been 
great progress made by all the States. This is a relatively new 
program, 5 years now, and certainly over that period of time, 
the applications have improved because of the technical 
assistance that we provide, the training that we provide at 
both the State and the local level, and because a significant 
component of the national review is a peer review that involves 
both individuals from headquarters of FEMA, region FEMA, but 
also individuals from States and local communities. We had over 
40 members of the technical review from local communities. That 
has helped get information out as to----
    Ms. Norton. Are those people who help evaluate----
    Mr. Maurstad. Yes, it is a peer review evaluation, and we 
include members on the team from State and local governments.
    Ms. Norton. How are they chosen?
    Mr. Maurstad. Primarily they are either advanced by the 
State, they come from one of the groups that is going to 
testify on the second panel, but they volunteer, essentially. 
So with the technical and training that we are doing, with the 
number of years now that the program has been under way, the 
involvement of State and local in the peer process, we believe 
the applications are becoming much better.
    The 500,000 set-aside, however, does allow all States, 
regardless of their size, which I think is maybe more important 
than their technical capability, to receive funding from PDM. 
And we believe that this blended process certainly has worked. 
But in the competitive process we have had winners, so to 
speak, from all the States. So everyone has the capability.
    Ms. Norton. You have had from all the States?
    Mr. Maurstad. Uh-huh. I believe we have, yes.
    Ms. Norton. So virtually every State has received some 
funding?
    Mr. Maurstad. Yes. Yes.
    Ms. Norton. Now, the grants, of course, like all Federal 
grants, are administered at the local level, yet FEMA obviously 
is held responsible because it is Federal money. How do you 
monitor compliance with Federal requirements for these grants?
    Mr. Maurstad. Well, first of all, we rely on the close 
working relationship between the regions and the States. But 
the State is the applicant, so they work with their local 
communities to make sure that the Federal laws are followed. We 
follow up to make sure that the programs--or, I mean, the 
applications and the projects do what they are intended to do. 
Of course, there are random audits by IG of all of our grant 
programs, and certainly if there are difficulties associated, 
we will recover those funds from the local communities or the 
State.
    So there is certainly the process, and the process is 
followed to make sure that the funds are spent like they are 
supposed to be spent.
    Ms. Norton. In this country where we are used to dealing 
with crises, you have to sell the government, you have to sell 
people on dealing with crisis before it becomes a crisis. The 
American way, having much to do with the great good fortune of 
living in a country with our kind of resources, kind of 
innovation our people show, seldom prepares for something 
terrible. And so if there is something terrible, we go in and 
fix it the best way we can. So this program in a real sense 
goes against the grain because it says nothing has happened 
yet, and yet you should spend some money in case something 
happens.
    I ask you the program about compliance with Federal 
regulations because the program is new, and it has shown such 
results that if a concern arose because the money wasn't being 
spent for something that hadn't been authorized there, you 
would have somebody saying, see there, we haven't had a flood, 
and these people haven't had a hurricane in 50 years, and these 
people are spending money; how come they are spending money on 
that rather than something else? So we are all trying to 
educate ourselves and the Congress, and, for that matter, the 
country, about why spending this money in this way is important 
to do.
    Now, Katrina is kind of a case in point, but not really, 
because I am not sure what kind of mitigation--of course, you 
could have had some. But no one is talking about spending huge 
amounts of money on mitigation, and certainly not the kind of 
mitigation that it would take to ward off an unforeseen 
hundred-year notion, although at the very moment, if I may say 
so, FEMA is going through just such a process, because we are 
indeed requiring people to look at what would happen in the 
case of a hundred-year flood. And there have been whining and 
groans throughout the country, including my own jurisdiction 
here, about how we have never had any flood or anything like 
that, why are we have having to do this? Why are we having to 
spend this money? So your testimony on what this program has 
done and how you monitor it is important for us to hear.
    Now we are going to hear some testimony that suggests that 
nonprofits, private nonprofits, should be allowed to be 
subapplicants for the program, as they offer some programs 
already under the Stafford Act. Would you support such a change 
in the legislation to allow, authorize private nonprofits to be 
a part of the program?
    Mr. Maurstad. Before I get to that, could I make a comment 
on mitigation activities in the gulf coast based on what you 
said?
    Ms. Norton. Please.
    Mr. Maurstad. There actually is quite a bit of mitigation 
going on in the gulf coast. We are going to have over 1 
billion, 300 million dollars will be spent in Louisiana alone, 
nearly 500 million in Mississippi to help reduce that area's 
vulnerability to future events. A lot of the State mitigation 
plans that are in both of those States were funded by 
mitigation dollars that will help those communities better 
prepare for the future. So there is a considerable investment 
going on in the gulf coast in mitigation.
    Ms. Norton. Actually, I am very glad you intervened to make 
that point and to correct the impression that I have left that 
somehow if you are having an unforeseen matter, there is no 
mitigation to be done. You are absolutely correct, Mr. 
Maurstad.
    Mr. Maurstad. And you do, you have outlined the challenge 
that mitigation faces and why the report that the Congress 
required has been so helpful, the CBO report. The private 
sector now is far more--is recognizing far more the benefits 
also associated with mitigation, and is helping spur local 
governments and individuals to take these activities that are 
long-term investments in reducing our vulnerability.
    As far as the private nonprofits, they really have a 
mechanism right now, certainly different than in some grant 
programs, to apply for predisaster mitigation funds in working 
with a local community to sponsor their application with the 
State. Now, some communities have deemed that the nonprofit 
either has resources to do the activities on their own or have 
other priorities, as is what may be the case at the State. So 
we certainly--it certainly can be workable within our process 
if it is the desire of Congress to allow them to work directly 
with the States. Quite frankly, we are just looking for as many 
good mitigation possibilities out there as we can, as we can 
find.
    Ms. Norton. Apparently there is some evidence that 
relatively small communities would have a better chance of 
competing for a grant if, for example, a private university 
were to--rather than the State, which doesn't, or the local 
jurisdiction which doesn't have the particular expertise. 
Again, we don't have particular evidence on it. We are just 
trying to widen the competition to make sure that all----
    Mr. Maurstad. Exactly why competition is one of the issues; 
because of the limited funding that is available, you have more 
people competing for the same amount. So that is one of the 
difficulties. But again, what we are looking for is the best 
mitigation opportunities out there and to help those that want 
to develop those types of projects.
    One point I forgot to mention that we are improving on is 
one of the issues that has been raised to me since the 
beginning of PDM was the cost-benefit in association with how 
to determine cost-benefit. We have made great strides in 
working with our State partners in better understanding cost-
benefit, how that analysis should be done. And we are coming 
out with a new software tool that is going to again make that 
process more--easier for the applicants to comply with.
    Ms. Norton. I think that the Committee itself may want to 
look at some of our economic development project areas or areas 
which have not been able to be economic development project 
areas. That is where we have lots of competition for EDA funds. 
And I have in mind some of those areas where you are dealing 
with rural communities where you couldn't begin to get the kind 
of expertise within the community except through some kind of 
university or the like.
    You made a good point, though, Mr. Maurstad: Widen the 
competition for limited funds.
    Mr. Maurstad. Yeah, ma'am, if I may be so bold to 
interrupt, I come from a very small community, 12,500 people, 
and my old hometown after I left, they were successful recently 
in this competition for a PDM grant. So I think we are 
providing the technical assistance and the training that really 
any community that is interested in being able to put together 
a competitive grant application can do so. It really starts 
with the will at the local level to want to make a commitment 
to mitigation.
    Ms. Norton. Finally, could I ask what you do when you, for 
example, as a mitigation acquire a property, return it to open 
space, are there permanent restrictions on the use of that 
property once it is declared open space? How is that put in 
place?
    Mr. Maurstad. Yes, there are. Because the local community 
is the subapplicant, and because it is on a willing-buyer/
willing-seller basis, the community takes the deed and then 
deed-restricts the property for open space. And so it cannot be 
turned back to development. And we have been very successful in 
all of our grant programs. We have returned about 6,000 acres 
of previously developed property to open space.
    Ms. Norton. Well, thank you very much, Mr. Maurstad. Very 
good testimony.
    And we would like to call the final witnesses: James 
Mullen, chairman of the Mitigation Committee of the National 
Emergency Management Association; Greg Woodworth, chairman of 
the Multihazard Mitigation Council of the National Institute of 
Building Sciences; and Robert C. Bohlmann, director of the York 
County Emergency Management Agency. We can just go left to 
right then. Mr. Mullen?

  TESTIMONY OF JAMES MULLEN, CHAIRMAN, MITIGATION COMMITTEE, 
  NATIONAL EMERGENCY MANAGEMENT ASSOCIATION; BRENT WOODWORTH, 
CHAIRMAN, MULTIHAZARD MITIGATION COUNCIL, NATIONAL INSTITUTE OF 
   BUILDING SCIENCES; AND ROBERT C. BOHLMANN, DIRECTOR, YORK 
               COUNTY EMERGENCY MANAGEMENT AGENCY

    Mr. Mullen. Thank you, Chairwoman Norton, Ranking Member 
Graves, and distinguished Members of Committee, for allowing me 
the opportunity to provide you with a statement for the record 
on the Predisaster Mitigation Program. In my statement I am 
representing the National Emergency Management Association, 
NEMA, whose members are the State emergency management 
directors.
    The PDM program works as a companion to the Postdisaster 
Hazard Mitigation Grant Program. PDM means we don't have to 
wait until a disaster occurs to take mitigation actions, and 
the program broadens the Nation's efforts both geographically 
and in terms of the hazards that may be addressed.
    As Congress considers the Predisaster Mitigation Program's 
reauthorization, adequate funding levels are needed to give the 
program the opportunity to demonstrate real value for the 
investments. NEMAsupports the program's reauthorization and 
looks forward to working with Congress to improve the program.
    The title of DMA2K that authorizes the PDM program is 
scheduled to sunset on September 30th, 2008. Again, we ask for 
Congress to reauthorize this critical program before that 
September 30th, 2008, sunset as any funds appropriated cannot 
be used after the sunset date. We believe that PDM is an 
important program and is making significant strides to mitigate 
against future disasters.
    Before coming to my current position with the State of 
Washington, I served as the city of Seattle's emergency 
management director and was intimately involved in developing 
Seattle's Project Impact pilot program, a public-private 
partnership that addressed and identified mitigation needs and 
promoted corrective strategies. The February 28, 2001, 
Nisqually earthquake demonstrated to the city and to the Nation 
there was significant value to that program. Many of the 
actions taken to retrofit and seismically protect buildings 
were helpful in preventing further damage, most notably in 
schools. We believe that these efforts saved the lives of 
schoolchildren in one school in particular.
    While Project Impact provided value, there was concern that 
the communities were not being chosen in coordination with the 
State emergency management agency, nor were the projects. PDM 
does allow for this coordination, particularly with the State's 
required hazard mitigation plan and identified projects. And 
while NEMA has concerns about some aspects of the PDM program, 
we remain firm that the program's reauthorization is 
particularly important.
    PDM is a young program that is still evolving, and FEMA's 
Mitigation Division has worked very closely with the State 
emergency management directors to listen to our input and 
respond to our position papers, even though we do not always 
agree.
    NEMA believes there are a couple of areas that do need to 
be looked at with respect to PDM. First, NEMA initially sought 
for PDM to be a formula-based program in which every State had 
a chance to receive funding. A competitive program, as is 
current practice, severely limits the ability of smaller States 
and those with less frequent disasters to successfully apply 
for and receive grants. Science cannot accurately predict where 
the next disaster may be or what kind of disaster may be faced. 
Attempting to prioritize limited predisaster mitigation funding 
on the national level is counterproductive to the establishment 
of State and local planning; therefore, NEMA supports the 
distribution of predisaster mitigation funds by a base-plus-
population formula rather than by competitive grants.
    The competitive system as it is presently funded creates 
more losers than winners. In an enterprise that seeks to 
encourage communities to protect themselves, it seems 
counterproductive to pit good programs against good programs 
where the objective is to promote the development of community 
predisaster mitigation programs overall. For small States and 
local jurisdictions, the cost of preparing the applications and 
the energy consumed through the various reviews are substantial 
and burdensome, particularly so when a good program is denied 
funding.
    Secondly, we would like a longer rolling application window 
to allow States and communities to begin applications even 
before funding is available, because priority lists are based 
on the State plans that are already in place. One of the issues 
is the timing of the application process over the holidays and 
disaster declarations.
    Finally, more technical assistance is needed to help States 
and communities before receiving the grants, as that would 
assist with the costly environmental and historic impact 
reviews.
    Thanks in large part to PDM funding, about 85 percent of 
the 6-1/2 million people who live in the State of Washington 
live in communities that have developed hazard mitigation plans 
envisioned by DMA2K and funded in large part by PDM grants. I 
want to share with you just one key example from Washington 
State that illustrates the importance of this program.
    Edmonds, Washington, School District obtained a 3 million 
PDM grant in 2005 to help it retrofit nine of its schools from 
earthquakes. The total project price is $8 million, and the 
project will be completed in the coming months. This project is 
important because the school district sits at the south end of 
the South Whidbey Island Fault, which scientists now tell us is 
the most dangerous earthquake fault in the State. The largest 
project the State of Washington anticipates funding through the 
Hazard Mitigation Grant Program in the next few years is $1-1/2 
million.
    The President's budget proposal includes 75 million in 
funding for the Predisaster Mitigation Program. The funding 
level is a $39 million decrease compared to fiscal year 2008 
funding levels. Additionally, the program contained significant 
earmarks in 2008, thus reducing the amount available for State 
and local governments to openly apply to be considered for the 
grants. The program funding is sorely under the national need, 
especially with the original intent of the law to provide each 
State with a portion of funding so lessons learned from 
disasters could be taken advantage of by all States. Each year 
FEMA typically receives requests for grants averaging over $450 
million.
    With such low levels of funding, the Predisaster Mitigation 
Program has never been fully able to address the intent of 
DMA2K. In 2005, Multihazard Mitigation Council published a 
study that found that every $1 FEMA invested into mitigation 
projects saves society approximately $4. The same study also 
showed that every dollar spent on hazard mitigation saved the 
Federal Treasury $3.65 in postdisaster relief and increased 
Federal tax revenues. These findings are vitally important to 
knowing that Federal investments are getting a strong return, 
as well as the 25 percent cost share that State and local 
governments contribute to the PDM grants upon award.
    In conclusion, Congress has continued to support PDM by 
reauthorizing this program three times. We must continue to 
build national preparedness efforts with a multihazard approach 
aimed at reducing lives lost and damage to property. We ask 
that Congress ensure that PDM authorization doesn't expire, and 
that a strong reauthorization is passed this summer. Thank you 
very much.
    Ms. Norton. Thank you, Mr. Mullen.
    Mr. Woodworth?
    Mr. Woodworth. Thank you very much, Madam Chair, Ranking 
Member Graves, and Members of the Subcommittee and 
distinguished guests. I truly appreciate this opportunity to 
speak with you today concerning a very important subject, the 
need for, the benefits of investing in predisaster mitigation.
    My name again is Brent Woodworth, and I am president and 
CEO of a company called Global Crisis Services, which is an 
international risk and management consulting firm, but I also 
chair the Multihazard Mitigation Council, which is a voluntary 
advisory council of the congressionally authorized nonprofit 
NIBS, or National Institute of Building Sciences, which is why 
I am here today.
    We are responding--we worked with FEMA in developing a 
study to take a look at the benefits of predisaster mitigation. 
The study included a review of FEMA grants, which included the 
FEMA Hazard Mitigation Grant Program, Project Impact, and the 
Flood Mitigation Assistance Programs, from 1993 through 2003. 
Over 5,000 grants were reviewed. The study was completed in 
2005 and clearly shows that FEMA's mitigation grants have been 
extremely effective in reducing future losses from earthquake, 
wind, and flood. We were very, very pleased with these results, 
and again shared them up the line.
    In taking a look at the study, we used a number of 
statistically representative samples to look at both project 
and process mitigation activities. The project activities 
included such things as brick-and-mortar efforts, which might 
be elevating a house above flood level, installing hurricane 
clips, or bolting down a foundation. Process activities are 
aimed at increasing awareness and fostering mitigation action, 
including stimulating communities to adopt up-to-date building 
codes, purchase flood insurance, or update their disaster 
recovery plans.
    We used some sophisticated modeling techniques in using our 
study, including software such as the HAZUSMH software tool to 
help analyze some of the earthquake and flood analysis. Bottom 
line, the total mitigation investment expenditure during the 
study period was $3.5 billion. The financial benefit to the 
population from investing in mitigation efforts during the 
study period was valued at approximately $14 billion, using 
2004 as a constant dollar figure. Dividing the mitigation 
benefit by the mitigation expenditure yielded a benefit-cost 
ratio of 4 to 1.
    The second part of our study, we also took a look at in-
depth examination of eight different selected communities. Our 
findings there showed that the FEMA mitigation grant funds 
utilized by each of these communities was also highly cost-
effective and led to additional non-Federal-funded mitigation 
activities. Communities have the greatest benefit when those 
particular funds were institutionalized into hazard mitigation 
programs, and it inspired a lot of activities within the 
community.
    This brings me to our conclusions. First, mitigation is 
cost-effective and warrants Federal funding on an ongoing 
basis, both before disasters strike and during postdisaster 
recovery efforts. The Nation will always be vulnerable to 
natural disasters, and therefore it is only prudent to invest 
in mitigation. As the British philosopher Henry de Bracton in 
1240 stated, an ounce of prevention is worth a pound of cure.
    Number two, predisaster mitigation grant programs should 
not rely solely on benefit-cost ratios as the selection 
criteria for investment. Not all benefits can be easily 
measured. For example, the benefit of moving structures out of 
a known floodplain can be quantified, but it is difficult to 
measure the benefit of the same land being reclaimed as 
naturalized wetlands or converted into a community recreation 
area. Even more difficult to measure is the benefit of reducing 
the stress people feel when constantly threatened by some of 
these disaster events.
    Finally, number three, mitigation is most effective when it 
is carried out on a comprehensive, communitywide, long-term 
basis. Single projects can help, but carrying out a coordinated 
set of mitigation activities over time is the best way to 
ensure that communities will be physically, socially, and 
economically resilient in coping with future hazards.
    Our recommendations to this Committee are as follows: One, 
invest in natural hazard mitigation as a matter of policy. This 
should be done on an ongoing basis, both before and during and 
after disasters. Number two, give FEMA the ability to consider 
benefits to society in the broadest possible sense. And 
finally, number three, support mitigation activities that will 
build the resilience of communities by helping to fund programs 
that increase knowledge on the basis of mitigation, promote 
public- and private-sector investment, and motivate community 
members to engage in collaborative preparedness efforts.
    In closing, we appreciate this opportunity and clearly urge 
you to reauthorize the PDM program.
    Ms. Norton. Thank you, Mr. Woodworth.
    Mr. Bohlmann.
    Mr. Bohlmann. Good morning, Chairman Norton, Ranking Member 
Graves, and distinguished Members of the Subcommittee. I am 
Robert Bohlmann, the emergency manager and homeland security 
director for York County, Maine, and I am representing the 
International Association of Emergency Managers this morning. 
We believe that the PDM is an important program, and urge 
Congress to quickly take action to reauthorize it prior to the 
PDM's scheduled sunset on September 30th, 2008.
    An adequate level of funding is necessary to ensure the 
success of PDM. The number of applications received this year 
would indicate there is a great need and an interest. The 75 
percent Federal cost share of the 446 applications received 
this year would have totaled over $317 million, which far 
exceeds the $52 million available for competitive grants.
    We understand there are concerns about the amount of PDM 
funding in prior years that remain in the FEMA account. We 
believe that the origin of the confusion regarding these funds 
is related specifically to the fact that even after a project 
is selected and the funding dedicated, it is not yet officially 
obligated.
    IAEM members firmly believe that the PDM program is an 
investment in the community, the State, and the Nation. 
Included in my written statement are examples of benefits of 
PDM projects. One of them is York Beach, a tourist community in 
York County, Maine, which was especially hard hit by the 
Mother's Day flooding event of 2006. The project will place a 
gate on the ocean outfall, so that the silt cannot fill the 
catch basins. When this project is completed, 26 businesses 
will be able to remain open during the tourist season. The 
construction of this project will keep 200 jobs in place in the 
community, and keep the community producing tax revenue at the 
local and State level, as well as provide a great place to 
vacation during the summer.
    We would like to suggest several possible improvements to 
the program. Our suggestions include FEMA should allow direct 
application of eligible private nonprofits. An eligible private 
nonprofit such as a college or a hospital can apply to the 
State as a subapplicant for Hazard Mitigation Grant Program and 
for assistance under FEMA public assistance; however, for the 
predisaster mitigation grant they are required to find an 
entity such as a city or a county to serve as the subapplicant 
on their behalf. This is an unnecessary and burdensome step, 
and we urge the Committee to work with FEMA on either a 
legislative change or a legislative interpretation which would 
allow PNPs to apply directly to the State. In many 
circumstances, PNPs have not been able to apply because already 
understaffed agencies are unwilling to serve as subapplicants.
    FEMA should allow a cost escalation factor to cover costs 
of price increases. It may be 24 months or more from the time a 
vendor's estimate is obtained for a project application to the 
actual time of beginning construction.
    FEMA should simplify the cost-benefit analysis.
    FEMA should allow more time for preparing applications. We 
believe that any additional time allowed to applicants in this 
process would result in higher-quality applications for 
projects.
    In closing, we urge the Committee to reauthorize the 
program. We would appreciate consideration of improving the PDM 
program by allowing eligible private nonprofits to apply 
directly to the State as subapplicants, by including a cost 
escalation factor, and by simplifying the cost-benefit 
analysis, and by allowing more time for thoughtful 
applications.
    I would be happy to answer any questions you may have.
    Ms. Norton. Thank you very much, Mr. Bohlmann.
    Mr. Mullen, you speak of the formula approach. How would 
you justify a formula approach, which would mean, I guess, that 
every State--and we already have a set-aside for every State--
if it would mean that some legitimate projects of far more need 
would not get the funds that in any priority ranking they might 
otherwise receive?
    Mr. Mullen. Well, Madam Chairwoman, there are two ways of 
looking at this, I think, and one is that local governments and 
State governments need to have some certainty. Having been a 
local official for some time, it takes a lot to build the kind 
of community coalition to do the application process and get 
everyone excited about doing the work. And sometimes an 
emergency manager at the local level has to choose to do that 
as opposed to some other task that they are already 
understaffed for that they have to do. We spend a lot of time 
trying to get through the week at the local level. And so it is 
very difficult from a State perspective to say you need to 
ratchet up and do this work when they are not sure whether or 
not they are going to get funded or not or have any hope if it 
is a program of merit.
    I think the problem here, the second part I want to say, is 
programs of merit are not getting funded now. And going back to 
my testimony, I would have to mention that science can't tell 
us where the next disaster will be. And one of the ways we can 
get consensus around mitigation in this country is to really 
promote everybody looking at their risks, their threats on the 
basis of their particular requirements and have some sense of 
certainty that at least their best projects will surface. And I 
do believe that that wouldn't replace a peer review or anything 
else. It wouldn't be competitive, though. The peer review then 
could be supportive and helpful and advisory in terms of you 
can make your project stronger if you do this. So I believe 
that would be my answer to that.
    Ms. Norton. Mr. Woodworth or Mr. Bohlmann, do you have a 
view on that matter?
    Mr. Woodworth. Thank you very much, Madam Chair.
    In looking at bringing in private and nonprofits, our 
particular view is that mitigation projects need to be broad-
based, across the community, and have the greatest value they 
possibly can.
    Ms. Norton. But I am asking about the formula basis as 
opposed to competitive basis.
    Mr. Woodworth. That I understand. And in putting together a 
formula to help meet that particular requirement, we haven't 
looked at what the specific formulas would be to do that. We 
are not opposed to it as long as it impacts the widest possible 
community as a result of the formula so that the greatest 
number of citizens within the community can indeed benefit from 
the formula.
    Ms. Norton. You, Mr. Bohlmann, do you have a view?
    Mr. Bohlmann. I became aware of this when I read Mr. 
Mullen's testimony last evening, and I have not had a lot of 
time to go over it. And I did talk to our leadership quickly, 
and we really don't have a solid position on it. We have not 
had issues in our communities with what has happened in the 
past by the competitive grant. And I think we have to do a 
little bit more study and have some more detail on this to see 
where our association is actually going to stand.
    Ms. Norton. Given the amount of money, there would be a 
presumption, I have to say to you, gentlemen, in favor of 
competition. I bring some experience from another Committee on 
which I serve, the Homeland Security Committee, which also has 
jurisdiction over FEMA for other disasters, disasters related 
to terrorism. And, of course, we started out with something of 
a formula, and we still have the legacy of something of a 
formula. And we have had some terrible examples of places where 
you would not expect al Qaeda to search out on a map receiving 
funds, while places, according to all the chatter, where 
terrorists seek, cry for funds.
    So the notion of every State, some of whom have constant 
natural disasters, and some who rarely have them, raises in me 
a presumption or at least a burden that those who want the 
formula would have to bear. I am not closed to the idea. The 
Homeland Security experience has been horrible, because people 
think up projects if they know that there is a formula. That 
said, the Committee is open to looking at various ways to fund 
this program.
    Mr. Mullen. Madam Chairwoman?
    Ms. Norton. Yes.
    Mr. Mullen. I actually have a comment relevant to that. The 
EMGP program is a formula program much like----
    Ms. Norton. Which program?
    Mr. Mullen. The EMPG, Emergency Management Performance 
Grant program, is a formula program. Also one of the problems 
that maybe we are dealing with is there is insufficient money 
in the pipeline altogether. The program that asks for $450 
million and only has 100 million or so in it creates more 
losers than winners, and that isn't productive if we are trying 
to promote mitigation. So the insufficiency of the funding at 
this level, I think, indicates that we have got to find a way 
to bridge the gap between the need and what we are able to 
deliver.
    Ms. Norton. Well, there is certainly an argument to be made 
to do both. The mitigation program assures, yes, there is a 
baseline ability of every community to handle a natural 
disaster. The what I can only call a tiny amount of money in 
this pot may also speak up on its own behalf about how the 
money should be distributed.
    Could I ask you, Mr. Woodworth, I was very interested in 
your formula, and CBO came back with something close--yours was 
$1 invested--$4 for every $1 invested. They have $3 for every 
$1 invested in savings. Could you say a word about your 
methodology?
    Mr. Woodworth. Yes, Madam Chairman. The difference between 
those two is that we did look at slightly different disasters. 
When you take a look at what the CBO report covered, it went 
beyond the three elements that we touched on, which were 
primarily wind, earthquake and flood. They also included fire 
and tornadoes and some other elements in additional detail 
beyond what was in our particular study.
    The other difference is some of the discounting factors 
that were used in evaluating value of life over time, et 
cetera. In the CBO study they do comment that the numbers that 
they have on things such as wind and flood pretty much match 
with what the MMC study is. There were some variations on the 
earthquake side based on the samples that they took versus the 
samples that we took, which were completely random. So we saw 
that mathematical variance between the two, but in both cases 
we considered it a fairly small variance.
    The positive news is that, of course, a 3-to-1 or a 4-to-1 
benefit-cost ratio is very good. And some of the things that 
also would impact that over time are we are looking at 
analyzing the frequency of disasters, the magnitude of 
potential consequences of disasters and so forth as to how you 
truly value them.
    Ms. Norton. Thank you.
    Yes, CBO has acknowledged that its own estimates have been 
low.
    Mr. Bohlmann, I am very intrigued by parts of your 
testimony on page 4 about not letting cost-benefit analysis, 
traditional cost-benefit analysis, be the sole determinant 
regarding the effectiveness of these programs. And you speak 
about indirect benefits. Could you give an example of indirect 
benefits? And could you indicate how you think one might 
quantify or otherwise evaluate indirect benefits coming from 
the program?
    Mr. Bohlmann. Of course a cost-benefit analysis is a common 
way of doing it, but there are a lot of indirect benefits from 
these programs that we have seen out there in large communities 
and small communities. And that is the spin-off, as I mentioned 
in my testimony, of the communities where it may be just the 
access, allowing folks to go to work, allowing fire apparatus 
in. It is hard to put into a cost-benefit, but it is a 
tremendous benefit to the community. And those are the things 
that local emergency managers try to measure as well as purely 
the cost-benefit analysis.
    Ms. Norton. It is intriguing. Open space, for example, I am 
not sure how you would evaluate that, but communities might 
evaluate that very highly.
    You have a view on that, too, Mr. Woodworth?
    Mr. Woodworth. Yes, Madam Chairman. In looking at some of 
the benefits of mitigation that are not as tangible, for 
example, we talk a lot about environmentally green activities, 
and one of the things that is a benefit of investing in 
predisaster mitigation, making structures more sound or taking 
them out of flood areas, is frankly a reduction in debris when 
there is a disaster, so there is less debris and garbage, et 
cetera, to handle in those events. Another example I mentioned 
was just measuring the reduction in stress and the ability of 
people to feel an ability to go back to work more effectively 
following a disaster, or even eliminating that stress through 
predisaster mitigation activities. Those things can have a very 
significant impact on social, economic, environmental issues.
    Ms. Norton. I think the challenge for us is to find ways to 
measure some of these, and until we do, we are stuck with how 
government measures effects of its programs. But what we are 
not stuck with is excessive bureaucracy.
    I want to just put on the record once again from the time I 
ran a Federal agency until this very moment, I can tell you 
that bureaucracy--not that we have heard much in the way of 
complaints about this program, but I can understand why it 
leads people to hate government. They can't get to the issues 
that government is supposed to deal with. And government feels, 
of course, that it is dealing with taxpayer money, and it has 
got to go through a process. So my concern always is are we 
performing the government function itself in the most efficient 
and low-cost way? And when it comes to applying for a program 
out of which funds come, I would be very interested in what you 
would have to say about whether you believe there are ways to 
streamline this particular process.
    Ms. Norton. You heard me ask Mr. Maurstad about the 
technical way in which the applications have to be presented.
    Would you, Mr. Mullen, Mr. Woodworth, or Mr. Bohlmann, have 
any suggestions about unnecessary requirements of the process 
or ways to streamline the process itself that could be helpful 
to us in the authorization?
    Mr. Mullen. Madam Chairman, I will take a stab at that.
    I think it is very helpful to consider the notion of a 
rolling application process, which I mentioned in my testimony 
and which Mr. Maurstad referenced, which is that the idea of 
having more than a 3-month window to apply is very important. 
In the last 2 years, in 2006 and in 2007, we had three 
Presidential-declared disasters in the middle of that. I have a 
staff that is of a reasonably good size, but when we have a 
Presidential disaster and floods all over western Washington 
and storms that cut out 3 million people with power for 2 
weeks, we have to put all hands on deck to deal with that. So 
my mitigation person comes in from the----
    Ms. Norton. How much lead time, do you think?
    Mr. Mullen. I think the 6 months is good. We would like 10 
months, but 6 months is certainly a vast improvement, and it is 
a sign of the responsiveness that I mentioned also in my 
testimony also in the mitigation division. They have been very 
helpful in listening to us and in processing our requests and 
in evaluating our needs, and so I am encouraged by 6 months. If 
I ask for 10 and he gives me 6 and we are at 3 months, we are 
making good progress.
    Ms. Norton. You are getting somewhere, Mr. Mullen----
    Mr. Mullen. Yes.
    Ms. Norton. --because we do not want the time period to be 
such that it gets postponed. If it is only going to last 3 
months, we are back where we were, but I certainly take your 
point. We are learning this new program essentially. We are 
learning the process. So we want to--particularly for the areas 
that are of concern the most and that have the least expertise, 
we do not want time to be able to work against them.
    Do either the rest of you have suggestions along those 
lines?
    Mr. Bohlmann. I will take a stab at that as well.
    I think the 6-month extended period does help us a lot, and 
anything that can be done to reduce the application process 
would be helpful, especially in our smaller States and in our 
smaller communities. The technical training that is being 
offered by FEMA has improved, and I think that if they can 
enhance that even more, it would help. When you get down to the 
small, rural community, you have probably three full time 
municipal employees in the whole community, and a lot of the 
work is done by volunteers. We actually had a case in Maine 
where the lead person on a very large project was a volunteer 
who stepped up to the plate, and he pushed this process 
through, and it worked extremely well, but you do not find that 
capability in every small community. So, for any help that can 
be given in technical expertise to make those communities more 
viable to apply, the need is there. There is a tremendous need 
for mitigation all the way around in small and large 
communities, and there has to be a process, and it has to be 
one that is valid, which they certainly have with the peer 
review.
    Again, the process needs to be as easy as we can make it. 
An extended time frame as we have stretched out now_and even 
the 10 months would be good because it does take time to bring 
these together and to make a good project if it is going to go 
on a competitive basis nationally.
    Ms. Norton. Well, in this case, time really is money for 
many communities that have the time to do it. They may, in 
fact, be better able to compete in the process.
    Mr. Woodworth.
    Mr. Woodworth. Thank you, Madam Chair.
    I also believe that having at least the 6 months is very 
reasonable, of which Director Maurstad spoke, but I believe 
down at the local level we really have to do a job of training 
and education on how to fill out these forms; what applies and 
what does not; some great examples of grants that have been 
accepted; others that would not be accepted, so that the local 
community has a far better understanding of how to actively 
compete for these.
    Ms. Norton. Let me ask you a question. I think especially 
it is for Mr. Bohlmann. Actually, I would like all of you to 
take a stab at it. And that is suggestions regarding tightening 
building codes and zoning codes to help prevent damage and 
disaster. You know, if you think of something that on the 
surface may seem, of course, to be no cost, of course, 
communities may regard it as costly because it determines where 
people build, who people build. If you are looking at the 
funding, if you are looking at building codes that could help 
prevent a disaster or a zoning that could help prevent a 
disaster, you cannot help but think, my goodness, why isn't 
this community helping itself simply by its own building codes 
and zoning codes to prevent disasters which it may see coming 
time and again or which it may know is going to come?
    Do you have views on this notion? If so, how might it be 
accomplished? How important is it or isn't it in this 
mitigation work?
    Mr. Bohlmann. Well, I believe it is very important. 
However, I have to couch this a little bit. I come from New 
England. New England is very steep in, "do not tell me how to 
do things."
    Ms. Norton. So is the rest of the country.
    Mr. Bohlmann. Well, I was trying to keep it localized.
    A lot of our communities started out very small, and as 
growth came, they did not lean forward and put zoning into 
place. Now they are looking at that, but in many cases, the 
damage is already done. We have got buildings built in areas 
that, under today's standards, you probably would not, and with 
today's building codes, you might not allow some of those 
buildings. So we already have a lot of those places in harm's 
way that we have to look at, but I think we do need to work 
much harder with our communities to move forward with good 
planning.
    Ms. Norton. Well, one way is, for example, to ask you 
whether you think it should be a factor in evaluating 
applications.
    Mr. Bohlmann. Definitely. Definitely.
    Building codes and what they are doing to upgrades 
certainly should be a factor. I mean, we do not want to rebuild 
again and again. Of course, the open space is answering some of 
that.
    Mr. Mullen. Madam Chairman, I have kind of a longer view of 
this.
    It is interesting that the first time that FEMA in the 
previous administration approached me about Project Impact was 
in September of 1997. The immediate assumption was that we 
would run out and upgrade our building codes. It is interesting 
you would say that. We did four other things because we felt we 
could actually address those more easily. It is, oftentimes, 
that emergency managers are not in the zoning and building code 
food chains, so with a program like this, we deal with what we 
think is an immediate problem. But I will say there are a 
couple of things.
    First, in order for people to adjust codes, they need 
information that says it is more valuable to take the cost and 
the burden and the political challenge of tightening a code. It 
is important to do that so that a bad thing does not happen. So 
people have to know what the risk is and know that this measure 
that is being proposed will match the risk. That is a local 
discussion that takes place.
    I would say, in my State--and I cannot speak for other 
States--but in my State, we have pretty robust earthquake codes 
because of the seismic activity we have experienced over the 
years, and that has helped us a great deal. What really has to 
happen, I believe, nationally is that mitigation itself has to 
get back into the dialogue. It has to be discussed. It has not 
really been considered a primary element for a number of years 
in this country. Even in emergency management circles, there 
were times, frankly, in the early years of the century where 
you whispered the word "mitigation," and people kept trying to 
find another word for "mitigation."
    Mitigation, I think, has survived all of that. I think I 
see a comeback from all quarters among all of those others of 
us who are committed to disaster mitigation. I think we need to 
change the dialogue and bring up and really challenge local 
governments and State governments and the Federal Government to 
treat mitigation as a very critical priority. It is so much 
cheaper to avert damage than to repair it. It makes perfect 
sense.
    Ms. Norton. Mr. Woodworth.
    Mr. Woodworth. Thank you very much, Madam Chair.
    From a zoning and building code standpoint, I think 
building codes play a very, very important part. As part of the 
NIBS board, we have seen that time and time again.
    From an earthquake example, if you look at the enforcement 
and the development of codes and at the use of codes in 
California for earthquake and then compare seismic activity 
that has occurred in the past to other countries which do not 
necessarily have those kinds of building codes, we can see 
dramatic examples of the huge advantage and the benefits in a 
reduction of damage, in saving lives, in increased productivity 
and so forth by implementing those codes. Things down in 
hurricane area, such as hurricane clips, bolting down 
foundations, putting on shutters, are all of huge benefit in 
reducing losses. There are a lot of inventions that continue to 
come out in the marketplace which help focus on this area.
    Just to comment, I know Popular Science, a magazine, about 
a year and a half ago had their invention of the year that was 
actually a nail, and it was a nail that had a flatter head. It 
was then twisted and ribbed, and when used on construction 
projects, it would actually increase the holding strength of 
the structure by more than two to one over conventional nails. 
Yet, the cost to build a house with this was less than a $15 
difference than building with standard nails. So we are seeing 
many things that are out there that can help us increase the 
resiliency of structures in high-risk areas, and I think we are 
all in favor of where it makes sense applying the building 
codes properly.
    Ms. Norton. This is very, very important testimony. Every 
community, as Mr. Bohlmann says--this is America, after all--
does its own cost-benefit analysis when it comes to something 
like building codes. More power to them.
    The problem I have is I have a hard time as Chair of this 
Subcommittee justifying spending Federal dollars, for example, 
for mitigation for a community that did not want to take any 
steps itself, a community that was flood prone, for example, 
and decided that they wanted a grant, but slight changes in its 
building codes was something that it did not want to make. I 
understand the political ramifications of these things, and the 
government certainly would never mandate such things, but when 
it comes to government dollars, it does seem to me that one 
factor ought to be, what has this community done to help itself 
that we can reinforce with the very small amount of government 
funding we have available in the first place? You have got to 
have some way to eliminate people.
    You heard the testimony that there were--what?--three to 
one, the number of applications. Well, how do you sort that out 
when all of these people who have taken the time and effort 
must desperately want this grant? It is not an easy grant to 
apply for. Well, you have to have some criteria that are fair 
in sorting out, so you get down to those you are going to 
consider.
    What Mr. Graves said with our first witness was so 
straightforward. He did not have any particular questions. I 
have gone on. I want to ask him if he has anything further to 
ask this panel.
    We found your testimony very, very helpful. We would like 
to look more--or at least I would like to have the Subcommittee 
look more into eligible nonprofits.
    I suppose my final question to you would be: Do you think 
that there is a substantial number of communities that would 
have no way whatsoever to compete without the help of a local 
expert like a university or a hospital or other nonprofit or do 
you think maybe that is one way we ought to use and eliminate 
people? Remember, I indicated we have got to find some way to 
decide who gets in the final pool. Would what amounts to 
increasing the pool by allowing some communities which do not 
have the capability to rely on an eligible nonprofit for the 
application process be an indicated thing to do in your 
judgment?
    Do any of you have views on that?
    Mr. Mullen. Madam Chairwoman, I am getting two questions 
out of that. Let me try to answer them as fully as I can.
    I think that the nonprofit issue is something that is 
interesting to me. I would have to go back and consult with the 
mitigation committee, my colleagues at NEMA, to see what the 
range of views would be across the Nation. It is a pretty 
diverse group, and I would really want to know what kind of 
feelings they had about that before I commented for NEMA.
    Ms. Norton. This is new to us, and we know it is allowed, 
though. We have allowed it before, so I suppose what would 
convince me is not so much opinion as some indication that 
there are substantial numbers of communities that are in 
terrible need that might, indeed, be made eligible. Do any of 
you have suggestions of such examples?
    Mr. Bohlmann. Well, Madam Chair, I think they currently 
could apply if they can find a State or a county or a local 
community, and what we were recommending----
    Ms. Norton. That is true.
    Mr. Bohlmann. --is that it follow the same standard as the 
HMGP--Hazard Mitigation Grant Program--or the FEMA disaster 
program where they could apply directly and remove that one 
piece. I do not think it would increase the numbers that want 
to apply. We have heard from our membership that it is 
difficult for a number of our members to take on that role of 
being the subapplicant for them. That is where the difficulty 
comes in.
    Ms. Norton. Mr. Woodworth.
    Mr. Woodworth. I truly believe that there is a good role 
for the nonprofits on the academic side in, perhaps, helping 
and in working with some of the smaller cities and communities 
in developing the proper grant proposals. Again, looking at 
measurement activity, such as the frequency of disaster within 
the community, the impact on the community, the potential 
effect of the consequences, I do know that there are a number 
of national nongovernment organizations, nonprofits and so 
forth, that are focusing more and more on this year of 
predisaster mitigation both domestically within the U.S. and 
worldwide. So this has become a hot topic within the emergency 
management community.
    An example of this is not a small city, but I will give you 
an example within a larger city in Los Angeles where with the 
support of the city and the mayor, a group of the NGOs along 
with businesses are coming together to try to put together a 
nonprofit foundation focused on predisaster mitigation and 
preparedness for the City of Los Angeles, and I think there are 
a number of other efforts similar to that that will be going 
on.
    Mr. Mullen. Madam Chairwoman, I might add that adding 
applicants to the pool, unless there is sufficient funding for 
them to have a reasonable opportunity or prospect of receiving 
funds, is problematic, but I do not doubt that there are groups 
that put out applications that could benefit from more 
technical assistance and more support.
    FEMA probably would have--I do not want to speak for FEMA 
certainly, but they might have some concerns, since they are in 
the decision chain, about giving assistance to specific groups 
that ask them, but I would think that some contracting 
capability or some arrangement with the universities or someone 
else could really--if it were funded so they could justify 
spending that time, it might attract people to the process, and 
it might also--if there were sufficient funding to give them to 
think they would have a chance of success, it might help. We 
would certainly work with the Committee to come up with an 
appropriate way to do that. Standards are always important. 
Even if you make it available to everybody, there should be 
some minimum criteria for entering into the pool, I think.
    Ms. Norton. Well, what you have all had to say, I think, is 
important to consider. The competitive process, obviously, has 
everything to do with whether you are able to carry out the 
process where you submit the application. I am concerned about 
people in our local community who are able to carry out that 
process, but there is an art and science to writing 
applications. If we want to make sure that need is truly 
factored in here so you get to some of the neediest parts or 
subparts of various States and, of course, the capability which 
is built into the application process automatically, you are 
still left with: Who are you leaving out for whom writing such 
an application would just be beyond anything they could do? 
Will the State give the required attention? Meanwhile, right 
next door is a university that is equally impacted, has a 
vested interest, has people who could write the application, 
who could assist the community, and for lack of opportunity to 
get the appropriate jurisdiction to pay attention, the 
community simply is not factored in. It is a very diverse kind 
of country, and there are very small communities in States and 
where the State has spent a lot of time on very large cities 
and on communities that are much more high-profile than obscure 
communities, which are always poorer, always have all of the 
problems often of big cities but have none of the expertise and 
could never have it.
    So this is something that I am entirely open to and am 
almost agnostic about, but I think about the small amount of 
money also when considering who should get the money. I really 
have a hard time believing that small communities which 
experience what is constantly--for example, they are in the 
same position as the county seat of a big city. How do we make 
up for that? It does seem to me to be an obligation of this 
Committee. I speak as somebody from a big city who does not 
have much knowledge or understanding of life in very small 
towns, but I know in this town that the government could write 
any kind of application it wants to, and you get on them when 
they do not because they have the capacity. I just cannot say 
that about smaller areas even close to Washington.
    I very much appreciate your testimony. It has been very 
helpful to hear from those of you who have been, as it were, on 
the ground and who can, therefore, tell us what we surely need 
to know in the reauthorization process. Thank you very much for 
coming to testify.
    [Whereupon, at 10:28 a.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T2252.004
    
    [GRAPHIC] [TIFF OMITTED] T2252.005
    
    [GRAPHIC] [TIFF OMITTED] T2252.006
    
    [GRAPHIC] [TIFF OMITTED] T2252.007
    
    [GRAPHIC] [TIFF OMITTED] T2252.008
    
    [GRAPHIC] [TIFF OMITTED] T2252.009
    
    [GRAPHIC] [TIFF OMITTED] T2252.010
    
    [GRAPHIC] [TIFF OMITTED] T2252.011
    
    [GRAPHIC] [TIFF OMITTED] T2252.012
    
    [GRAPHIC] [TIFF OMITTED] T2252.013
    
    [GRAPHIC] [TIFF OMITTED] T2252.014
    
    [GRAPHIC] [TIFF OMITTED] T2252.015
    
    [GRAPHIC] [TIFF OMITTED] T2252.016
    
    [GRAPHIC] [TIFF OMITTED] T2252.017
    
    [GRAPHIC] [TIFF OMITTED] T2252.018
    
    [GRAPHIC] [TIFF OMITTED] T2252.019
    
    [GRAPHIC] [TIFF OMITTED] T2252.020
    
    [GRAPHIC] [TIFF OMITTED] T2252.021
    
    [GRAPHIC] [TIFF OMITTED] T2252.022
    
    [GRAPHIC] [TIFF OMITTED] T2252.023
    
    [GRAPHIC] [TIFF OMITTED] T2252.024
    
    [GRAPHIC] [TIFF OMITTED] T2252.025
    
    [GRAPHIC] [TIFF OMITTED] T2252.026
    
    [GRAPHIC] [TIFF OMITTED] T2252.027
    
    [GRAPHIC] [TIFF OMITTED] T2252.028
    
    [GRAPHIC] [TIFF OMITTED] T2252.029
    
    [GRAPHIC] [TIFF OMITTED] T2252.030
    
    [GRAPHIC] [TIFF OMITTED] T2252.031
    
    [GRAPHIC] [TIFF OMITTED] T2252.032
    
    [GRAPHIC] [TIFF OMITTED] T2252.033
    
    [GRAPHIC] [TIFF OMITTED] T2252.034
    
    [GRAPHIC] [TIFF OMITTED] T2252.035
    
    [GRAPHIC] [TIFF OMITTED] T2252.036
    
    [GRAPHIC] [TIFF OMITTED] T2252.037
    
    [GRAPHIC] [TIFF OMITTED] T2252.038
    
    [GRAPHIC] [TIFF OMITTED] T2252.039
    
    [GRAPHIC] [TIFF OMITTED] T2252.040
    
    [GRAPHIC] [TIFF OMITTED] T2252.041
    
    [GRAPHIC] [TIFF OMITTED] T2252.042
    
    [GRAPHIC] [TIFF OMITTED] T2252.043
    
    [GRAPHIC] [TIFF OMITTED] T2252.044
    
    [GRAPHIC] [TIFF OMITTED] T2252.045
    
    [GRAPHIC] [TIFF OMITTED] T2252.046
    
    [GRAPHIC] [TIFF OMITTED] T2252.047
    
    [GRAPHIC] [TIFF OMITTED] T2252.048
    
    [GRAPHIC] [TIFF OMITTED] T2252.049
    
    [GRAPHIC] [TIFF OMITTED] T2252.050
    
    [GRAPHIC] [TIFF OMITTED] T2252.051
    
    [GRAPHIC] [TIFF OMITTED] T2252.052
    
    [GRAPHIC] [TIFF OMITTED] T2252.053
    
    [GRAPHIC] [TIFF OMITTED] T2252.054
    
    [GRAPHIC] [TIFF OMITTED] T2252.055
    
    [GRAPHIC] [TIFF OMITTED] T2252.056
    
    [GRAPHIC] [TIFF OMITTED] T2252.057
    
    [GRAPHIC] [TIFF OMITTED] T2252.058
    
    [GRAPHIC] [TIFF OMITTED] T2252.059
    
                                    

</pre></body></html>
